      Department of Homeland Security





    Transportation Security Administration’s Management
             Letter for FY 2012 DHS Consolidated
                  Financial Statements Audit




OIG-13-79                                        April 2013

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov

                                      APR 12 2013

MEMORANDUM FOR:              David Nicholson
                             Chief Financial Officer
                             Transportation Security Administration

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:                     Transportation Security Administration’s Management
                             Letter for FY 2012 DHS Consolidated Financial Statements
                             Audit

Attached for your information is our final report, Transportation Security
Administration’s Letter for FY 2012 DHS Consolidated Financial Statements Audit. This
report contains observations related to internal control deficiencies that were not
required to be reported in the Independent Auditors’ Report on DHS’ FY 2012 Financial
Statements and Internal Control over Financial Reporting. Internal control deficiencies
that are considered significant deficiencies were reported, as required, in the
Independent Auditors’ Report, dated November 14, 2012, which was included in the DHS
fiscal year (FY) 2012 Annual Financial Report. We do not require management’s
response to the recommendations.

The independent public accounting firm KPMG LLP conducted the audit of DHS’
FY 2012 financial statements and is responsible for the attached management letter
dated March 12, 2013, and conclusions expressed in it. We do not express opinions on
DHS’ financial statements or internal control, nor do we provide conclusions on
compliance with laws and regulations.

Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant
Inspector General for Audits, at (202) 254-4100.

Attachment
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006

March 12, 2013


Office of Inspector General
U.S. Department of Homeland Security, and
Chief Financial Officer,
U.S. Department of Homeland Security Transportation Security Administration
Washington, DC

Ladies and Gentlemen:

We have audited the balance sheet of the U.S. Department of Homeland Security (DHS or Department) as
of September 30, 2012 and the related statements of net cost, changes in net position and custodial activity,
and combined statement of budgetary resources for the year then ended (referred to herein as the “fiscal
year (FY) 2012 financial statements”). The objective of our audit was to express an opinion on the fair
presentation of these financial statements. We were also engaged to examine the Department’s internal
control over financial reporting of the FY 2012 financial statements, based on the criteria established in
Office of Management and Budget (OMB), Circular No. A-123, Management’s Responsibility for Internal
Control, Appendix A.
Our Independent Auditors’ Report, issued on November 14, 2012, describes a limitation on the scope of
our audit that prevented us from performing all procedures necessary to express an unqualified opinion on
the DHS’ FY 2012 financial statements and internal control over financial reporting. In addition, the FY
2012 DHS Secretary’s Assurance Statement states that the Department was able to provide qualified
assurance that internal control over financial reporting was operating effectively at September 30, 2012.
We have not considered internal control since the date of our Independent Auditors’ Report.
In accordance with Government Auditing Standards, our Independent Auditors’ Report, referred to in the
paragraph above, included internal control deficiencies identified during our audit, that individually, or in
aggregate, represented a material weakness or a significant deficiency.
The Transportation Security Administration (TSA) is a component of DHS. We noted certain matters,
related to TSA, that are summarized in the Table of Financial Management Comments on the following
pages, involving internal control and other operational matters that are less severe than a material weakness
or a significant deficiency, and consequently are reported separately to the Office of Inspector General
(OIG) and TSA management in this letter. These comments and recommendations, all of which have been
discussed with the appropriate members of management, are intended to improve internal control or result
in other operating efficiencies. The disposition of each internal control deficiency identified during our FY
2012 audit—as either reported in our Independent Auditors’ Report, or herein—is presented in
Appendix A. The status of internal control deficiencies identified during our FY 2011 audit is presented in
Appendix B. Our findings related to information technology systems security have been presented in a
separate letter to the OIG and the DHS Chief Information Officer.
We would be pleased to discuss these comments and recommendations with you at any time. This report is
intended for the information and use of the DHS’ and TSA’s management, the DHS OIG, the U.S. OMB,
the U.S. Congress, and the Government Accountability Office, and is not intended to be and should not be
used by anyone other than these specified parties.
Very truly yours,


                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
                            Transportation Security Administration
                          Table of Financial Management Comments
                                     September 30, 2012

TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)


Comment 

Reference
 Subject                                                                   Page

FMC 12-01   Asset Exchanges                                                           2
FMC 12-02   Noncompliance with Debt Collection Improvement Act (DCIA) of 1996         2
FMC 12-03   Revenue Fee Classification                                                3
FMC 12-04   Review of Journal Vouchers                                                3
FMC 12-05   Employee Record Management and Compliance with Human Resources            4
            Related Laws
FMC 12-06   Ineffective Controls over the Time and Attendance Process                 4
FMC 12-07   Property Plant and Equipment (PP&E) Site Visits                           5
FMC 12-08   PP&E Controls                                                             7
FMC 12-09   Completeness of Heritage Assets                                           8
FMC 12-10   Undelivered Orders Controls – Validation and Verification                 8
FMC 12-11   Travel Authorization Approval                                             9
FMC 12-12   Intragovernmental Payment And Collection Review Controls and Suspense     9
            Clearing


APPENDIX
 Appendix   Subject                                                                  Page

    A       Crosswalk – Financial Management Comments to Active Notices of Finding    10
            and Recommendation (NFRs)
    B       Status of Prior Year NFRs                                                 12




                                             1

                                Transportation Security Administration
                                  Financial Management Comments
                                         September 30, 2012


FMC 12-01 – Asset Exchanges (NFR No. TSA 12-01)

       Transportation Security Administration (TSA) lacks formalized documented policies and
       procedures to ensure that property exchanges maximize value to the government and conform to
       the appropriate property management laws, regulations, and policies. Exchanges of goods for
       services are generally not allowable under the property management regulations. Specifically, we
       noted policies do not exist to:
       •	 Require the review and approval of the Property Management Division (PMD) for any future
           exchange sales and property disposals.
       •	 Require senior executive leadership within the Office of Acquisitions and the owning
           organization to review and approve the business case for the exchange of equipment or other
           non-cash transactions.
       •	 Require PMD to communicate the requirements and policy for exchange sales to all TSA
           organizations and contracting professionals with the Office of Acquisitions.

       Recommendations:
       We recommend TSA to take the following corrective actions:
       •	 Require leadership within the Office of Acquisitions and the owning organization to review
          the business case for the exchange sale for any contract that involves the exchange of
          equipment.
       •	 The Office of Acquisitions and PMD develop process to identify exchange sale for
          surveillance and reporting.
       •	 PMD update the Personal Property Management Manual and include exchange sale
          transaction guidance.
       •	 PMD communicate the requirements and policy for exchange sales to all TSA organizations
          and contracting professionals with the Office of Acquisitions.
       •	 The Office of Acquisitions issue a data call to all Contracting Officers (COs) to determine if
          other similar exchange sales were processed in fiscal year (FY) 2011 and FY 2012. Review
          and verify that any exchange sales that were processed were properly recorded and reported.
       •	 Financial Management Division provide acquisition cost, net book value, and remaining
          useful life for assets identified for exchange sale and record the appropriate accounting entry
          to remove the assets from TSA's ledger.

FMC 12-02 – Non-Compliance with the Debt Collection Improvement Act of 1996 (DCIA) (NFR No.
TSA 12-04)

       In FY 2011, TSA was not in compliance with DCIA. During FY 2011, TSA revised its internal
       Standard Operating Procedures (SOP) over ensuring compliance with DCIA. Although this SOP
       has been adopted and approved, the SOP is not properly designed to ensure full compliance with
       the provisions of DCIA for FY 2012. The SOP indicates that referrals are only made on a
       quarterly basis. We further note that the policy lacks adequate management review controls over
       the accounts receivable payments database to verify completeness over fees identified as
       outstanding and eligible for referral.

       Specifically we noted the following instances of non-compliance:
       •	 For 3 of 59 sample items selected, demand letters were not sent to the debtor timely.



                                                   2

                                 Transportation Security Administration
                                   Financial Management Comments
                                          September 30, 2012


       •	 For 5 of 59 sample items selected, TSA did not refer eligible, outstanding debt to Treasury
          within 180 days.

       Recommendations:
       We recommend that TSA’s:
       •	 Accounting and Revenue review and edit the SOP to indicate that Passenger Fee and Air
          Carrier Fee referrals to Treasury be conducted on a monthly basis by the Office of Revenue
          to ensure that the SOP is properly designed to ensure full compliance with the Federal
          collection guidelines.
       •	 Accounting and Revenue review and edit the SOP to document management controls over
          establishment of Passenger Fee and Air Carrier Fee accounts receivable to review and verify
          completeness over fees identified as outstanding.

FMC 12-03 – Revenue Fee Classification (NFR No. TSA 12 -05)

       During our testwork over revenue, we noted TSA lacks preventative controls to ensure all
       aviation fees are timely classified to the correct fee type – Aviation Security Infrastructure Fees
       (i.e. Carrier Fees) or September 11th Security Fees (Passenger Fees) at the time of initial deposit.

       Specifically, we noted three instances in which TSA made corrections, in the subsequent quarter,
       to the March daily deposit report to reclassify two fees from passenger to carrier and one fee from
       carrier to passenger.

       Recommendations:
        We recommend that TSA’s:
       •	 Revenue Division continue to execute the series of existing controls already in place to
          identify the correct classification revenue.
       •	 Revenue Division continue with communication, education, and industry outreach to all
          aviation customers to further emphasize the importance of continually providing proper
          remittance advice.
       •	 Financial Management Division Accounting Branch review the fee classification recorded via
          Journal Voucher (JV) (accounts receivable accrual and collections in-transit).

FMC 12-04 – Review of JVs (NFR No. TSA 12-06)

       Controls related to JV reviews were not fully effective during the current year. Specifically we
       noted:
       •	 One sample item that was recorded for the incorrect amount.
       •	 One sample item that was recorded to correct an entry that was reviewed, approved, and
           posted in error in a prior month.

       Recommendations:
       We recommend TSA:
       •	 Ensure that JV Preparers and Reviewers take the yearly JV Training which will include JV
          preparation, lessons learned and the requirements for review and approval.




                                                    3

                                Transportation Security Administration
                                  Financial Management Comments
                                         September 30, 2012


       •	 Branch Chiefs train their staff on all applicable accounting standards and procedures for their
          areas of responsibility.


FMC 12-05 – Employee Record Management and Compliance with Human Resources Related
Laws (NFR No. TSA 12-07)

       TSA lacks documented policies and procedures related to the review and maintenance of
       employee personnel folders to ensure completeness and accuracy of employee benefit election
       documentation and processing. In addition, ensure that employee benefits are properly supported
       by available documentation within the employee personnel files.

       Specifically we noted the following conditions related to a lack of documentation:
       •	 Two instances in which the SF-2817 (Federal Employees’ Group Life Insurance (FEGLI))
          form was not included in the employee personnel folders.
       •	 One instance in which the FEGLI elections per the Leave and Earnings Statement did not
          agree to the coverage elections selected by the employee per the SF-2817 (FEGLI) form.
       •	 One instance in which the SF-2809 (Federal Employees’ Health Benefit (FEHB)) form
          evidencing the employee’s current benefits election was not included in the employee
          personnel folders.
       •	 One instance in which the current Thrift Savings Plan (TSP) election form was not included
          in the employee personnel folders.

       Recommendation:
       We recommend TSA continue to monitor the service provider to verify that all of the supporting
       documentation for benefit and TSP elections are uploaded into the Official Personnel Folder in a
       timely manner for both new hires and employee changes. This ongoing review will ensure the
       service provider is following the Federal guidelines pertaining to record keeping.

FMC 12-06 – Ineffective Controls over the Time and Attendance Process (NFR No. TSA 12-09)

       Airports (5 Sites)
       During our FY 2012 site visits to airports, we noted that controls over time and attendance were
       not fully effective at the airports. We noted the following:

       •	 Controls over the review and approval of timesheets are not operating effectively.
          Specifically, we noted:
             •	 Lack of evidence of timely supervisor review and approval of timesheets and
                  additional supporting documentation (nine instances):
                           o	 Five of 59 instances where overtime requests were not approved prior to
                               the employee working the overtime hours.
                           o	 Two of 59 instances where employee sick leave approval was not
                               properly evidenced.
                           o	 One of 59 instances where leave was taken prior to supervisor approval.
                           o	 One of 59 instances where the employee was paid for 0.5 hours of
                               unauthorized time worked.



                                                   4

                                 Transportation Security Administration
                                   Financial Management Comments
                                          September 30, 2012


       •	 Lack of policies and procedures to ensure consistent application of time and attendance
          review requirements at airports utilizing the Electronic Time and Attendance System.
       •	 Lack of policies and procedures to ensure completeness of listing of employees by airport.
          We noted two instances where employees charged time to Web Time and Attendance
          (WebTA) in pay period 06, but were not included in the listing of employees provided to the
          auditors for pay period 06. We note that we were able to trace the employees to the
          population of payroll expense to ensure they were properly included.

       Federal Air Marshall Service (5 Sites)
       During our FY 2012 site visits to airports, we noted that controls over the review and approval of
       timesheets are not operating effectively. Specifically, we noted:
       •	 Lack of evidence of timely supervisor review and approval of timesheets and additional
           supporting documentation (eleven instances)
              •	 Two of 62 instances where the timecard was not approved until the following pay
                   period.
              •	 Eight of 62 instances where leave was taken prior to supervisor approval.
              •	 One of 62 instances where employee sick leave form was not approved timely.
       •	 Lack of evidence of supervisor review and approval of timesheet and additional supporting
           documentation (one instance):
              •	 One of 62 instances where the employee's timesheet was not reviewed and approved
                   by the appropriate supervisor.

       Recommendations:
       We recommend that TSA:
       •	 Continue to provide training, focusing awareness on maintaining effective controls over time
          and attendance processes. Training should continue to be accomplished through initial
          training of personnel assigned to time and attendance duties as well as refresher training for
          those performing these duties.
       •	 Federal Air Marshall Service Regional Directors within the Office of Field Operations should
          be responsible for validating and certifying all field office K-Band (TSA pay scale) and
          Transportation Senior Executive Service SAC time and attendance forms effective
          immediately.
       •	 Develop and implement policies and procedures for the use of Electronic Time and
          Attendance System, specifically addressing user roles and proper approval of leave and
          overtime using reports available from the system, i.e., the exception report.

FMC 12-07 – Property Plant and Equipment (PP&E) Site Visits (NFR No. TSA 12-10)

       During our FY 2012 site visits, we noted the following:

       Airport Site Visits
       During our FY 2012 site visits to airports, we noted that controls over PP&E were not fully
       effective at the airports. Specifically, we noted that controls in place did not properly ensure:




                                                     5

                         Transportation Security Administration
                           Financial Management Comments
                                  September 30, 2012


•	 The serial number per the asset agrees to Sunflower Asset Management System (SAMS).
   KPMG noted one instance where the TSA serial number per the asset did not agree to the
   SAMS record.
•	 The TSA ID (barcode) per the asset agrees to SAMS. KPMG noted four instances where the
   TSA ID per the asset barcode did not agree to the asset records per SAMS.
•	 The asset location agrees to that listed in SAMS. KPMG noted five instances where the
   actual location did not agree to the location recorded in SAMS.
•	 Assets not owned by TSA were properly segregated from the inventory scan and excluded
   from SAMS. KPMG noted 2 instances where the asset was leased with GSA but was
   improperly included in SAMS and in the inventory scan report.

Federal Air Marshall Service Site Visits
During our FY 2012 site visits to airports, we noted that controls over property, plant and
equipment were not fully effective at the Federal Air Marshall Service field offices. Specifically,
we noted that controls in place did not properly ensure:
•	 The serial number per the asset agrees to SAMS. KPMG noted five instances where the TSA
    serial number per the asset did not agree to the SAMS record.
•	 The TSA ID (barcode) per the asset agrees to SAMS. KPMG noted one instance where the
    TSA ID per the asset barcode did not agree to the asset records per SAMS.
•	 All TSA owned equipment is properly tagged with a TSA barcode. KPMG noted one
    instance where TSA owned equipment was not tagged with a barcode.
•	 The asset location agrees to that listed in SAMS. KPMG noted three instances where the
    actual location did not agree to the location recorded in SAMS.

TSA Logistics Center Dallas Warehouse
During our FY 2012 visit to the TSA Logistics Center, we noted that controls over property, plant
and equipment were not fully effective at the TSA Logistics Center. Specifically, we noted that
controls in place did not properly ensure:
•	 The serial number per the asset agrees to SAMS. KPMG noted one instance where the TSA
    serial number per the asset did not agree to the SAMS record.
•	 SAMS is updated timely to reflect inventory results. KPMG noted six instances where assets
    scanned as a part of the inventory count were not included in the reconciled TSA Logistics
    Center SAMS balance as of September 14, 2012.

Recommendations:
We recommend TSA:
•	 PMD continue communication and outreach with Accountability Property Officers and
   Property Custodians to address property management processes, procedures, and updates.
•	 PMD provide training and ongoing guidance to Program Managers, Accountability Property
   Officers, Property Custodians, and Vehicle Custodians as needed.
•	 PMD ensure that Office of Law Enforcement/Federal Air Marshall Service program offices
   and locations have access to TSA property management policies, procedures and guidance to
   ensure compliance in adhering to our processes.
•	 PMD work with all program offices and field offices to ensure TSA owned vehicles are
   recorded in SAMS with the correct cost, bar code, serial number, and location.



                                            6

                               Transportation Security Administration
                                 Financial Management Comments
                                        September 30, 2012


      •	 Open transfer metrics continue to be reported on a monthly basis for monitoring. The detailed
         list of open transfers will be provided to the offices responsible for closing the transfers for
         appropriate action.
      •	 PMD, the Financial Management Division, and Office of Security Capabilities will ensure the
         SAMS extract used to perform the final TSA Logistics Center inventory reconciliation is not
         generated until the final shipment of the day is received at the TSA Logistics Center.


FMC 12-08 – PP&E Controls (NFR No. TSA 12-11)

      During our testwork over FY 2012 PP&E activity, we noted the following:

      Asset Additions
      •	 Existing controls are not operating effectively to ensure asset addition values are supported
          with sufficient, appropriate documentation before addition into the Fixed Asset Module.
          Specifically, we noted one vehicle was undercapitalized.

      •	 Existing controls are not operating effectively to ensure asset additions are processed timely
         into the Fixed Assets Module. Specifically, we noted one asset was not approved for addition
         into the Fixed Assets Module until two months after it appeared as a roll-forward addition.

      Asset Retirements
      •	 Existing controls are not operating effectively to ensure asset retirements are supported by
          sufficient and appropriate documentation. Specifically, we noted one asset was identified as
          damaged but was improperly recorded as a deletion and had to be subsequently reinstated.
      •	 Existing controls are not operating effectively to ensure assets are disposed of timely.
          Specifically, we noted two assets were not disposed timely based on review of the supporting
          documentation.
      •	 Existing controls are not operating effectively to ensure gain/loss is correctly recorded upon
          asset retirement. Specifically, we noted two instances where the loss recorded for two asset
          retirements was overstated.

      Transportation Security Equipment (TSE) Roll-forward
      •	 Controls are not designed appropriately to ensure review and approval by the Branch Chief is
         properly evidenced. Specifically, we noted per inspection of the March 31, 2012 equipment
         roll-forward, the Branch Chief’s review was not evidenced.

      Recommendations:
      We recommend TSA:

      Asset Additions
      •	 PMD should implement policies and procedures to utilize invoices providing asset-level
          detail to record vehicle acquisition costs.
      •	 PP&E Accounting Branch should continue to work with program offices to communicate
          supporting documentation requirements for capitalized assets.




                                                  7

                                Transportation Security Administration
                                  Financial Management Comments
                                         September 30, 2012


       •	 Expand existing Internal Control Branch review or create targeted review to address vehicle
          cost.

       Asset Retirements
       •	 PMD should implement quality review processes to validate asset status prior to disposal.
           PMD will also implement procedures to confirm asset disposals are processed timely with
           adequate supporting documentation attached to the asset record.
       •	 P&E Accounting Branch should utilize policies and procedures to review asset disposals to
           verify disposal dates are correct per supporting documentation and the correct disposal date is
           utilized to calculate and record gain/loss amounts.
       TSE Roll-forward
       •	 PP&E Accounting Branch Chief or designee should review and approve of the monthly
           Transportation Security Equipment roll-forward. Document evidence of approval via
           signature and date on the roll-forward.

FMC 12-09 – Completeness of Heritage Assets (NFR No. TSA 12-12)

       TSA lacks policies and procedures to ensure the completeness of artifacts reviewed by the TSA
       Historian Project for consideration for classification as a heritage asset. Specifically, during our
       FY 2012 site visit at the Colorado Springs Operations Center on August 9, 2012, we noted a piece
       of steel beam from the World Trade Center. However, this artifact had not been considered for
       evaluation for classification as a heritage asset by the TSA Historian Project.

       Recommendations:
       We recommend that TSA:
       •	 The TSA Historian Project Manager coordinate a data call to all airports and field offices
          requesting they identify all assets of potential historical significance for review by TSA
          Historian Project.
       •	 Data call requirements be communicated on an annual basis by the PMD via newsletters and
          conference calls.

FMC 12-10 – Undelivered Orders (UDO) Controls – Validation and Verification (NFR No. TSA 12­
15)
     TSA’s policies and procedures are not designed effectively to ensure contract close out and
     liquidation of any remaining obligation balances is completed timely.

       Specifically, during UDO verification and validation control testwork, we noted three instances in
       which the contract close out procedures and subsequent liquidation of the remaining funding was
       not completed timely.

       Recommendations:
       We recommend TSA:
       •	 Develop new training classes for Program Offices (Financial Management Division and
          Office of Acquisitions partnership).
       •	 Develop priority lists early each fiscal year to address UDOs which use lapsing and
          cancelling funds.



                                                    8

                                Transportation Security Administration
                                  Financial Management Comments
                                         September 30, 2012




FMC 12-11 – Travel Authorization Approval (NFR No. TSA 12-17)

      As a result of our testwork to ensure that travel authorizations and vouchers are properly
      approved, coded, and recorded into the FedTraveler System, KPMG noted controls over the travel
      authorizations were not operating effectively. Specifically, we noted:
      •	 In three instances out of 21, travel authorizations were not approved prior to the start of the
          employee's travel, and there was no documentation indicating sufficient justification for why
          the travel was not approved prior to the employee's travel departure date.
      •	 In two instances out of 21, the travel authorization approver did not appear to have proper
          authority to approve the authorization.
      Recommendations:
      We recommend TSA:
      •	 On a monthly basis, a report of travel authorizations approved after the travel start date be run
          and travelers and approvers will be notified of non-compliance and asked to amend the travel
          authorization to provide a justification explaining why the travel was approved after the fact.
          (The requirement that travel should be approved in advance of travel date is a requirement
          included in MD 1000.6.).
      •	 By the 15th of each month, the list of authorized approvers be compared to the approvers of
          travel documents in the system during the same period; any exceptions should be researched.

FMC 12-12 – Intragovernmental Payment and Collection (IPAC) Review Controls and Suspense
Clearing (NFR No. TSA 12-19)

       In response to FY 2011 NFR TSA-11-14, TSA implemented a new process, effective April 1,
       2012, to review IPAC transactions in order to properly clear these transactions from suspense.
       Under this new policy, all IPAC transactions are reviewed, validated, and approved by the
       appropriate TSA point of contact (CO or Contracting Officer’s Technical Representative
       (COTR)) prior to being cleared from the suspense account and recorded as an expense. KPMG
       notes, however, as the control was not implemented until April 2012, we continue to note a
       control deficiency related to the lack of controls in place to evidence review of IPAC payments in
       FY 2012.

      Recommendations:
       We recommend that TSA:
      •	 Financial Management Division continue to execute the IPAC approval process (fully
         implemented in August 1, 2012) in FY 2013.
      •	 Establish reconciliation procedures to ensure that TSA is receiving the goods and services
         billed; to include large agreements such as with General Services Administration (GSA).




                                                   9

                                                                                      Appendix A
                              Transportation Security Administration
                   Crosswalk – Financial Management Comments to Active NFRs
                                       September 30, 2012


                                                                             Disposition1
                                                                             IAR             FMC
NFR No.    Description                                                 MW     SD     NC       No.
12-01      Asset Exchanges                                                                   12-01
12-02      Revenue Analytic                                            A
           Entity Level Controls (ELCs) and Related Effects on
12-03                                                                  A      F
           Financial Reporting
           Noncompliance with Debt Collection Improvement Act
12-04                                                                                        12-02
           (DCIA) of 1996
12-05      Revenue Fee Classification                                                        12-03
12-06      Review of Journal Vouchers (JVs)                                                  12-04
           Employee Record Management and Compliance with
12-07                                                                                        12-05
           Human Resources Related Laws
12-08      Public Financial Disclosure Forms                                  F
12-09      Ineffective Controls over the Time and Attendance Process                         12-06
12-10      Property Plant and Equipment (PP&E) Site Visits                                   12-07
12-11      PP&E Controls                                                                     12-08
12-12      Completeness of Heritage Assets                                                   12-09
12-13      Invalid and Inaccurate Undelivered Orders (UDOs)            A
12-14      Improper Expense Recognition                                A
12-15      UDO Controls – Validation and Verification                                        12-10
12-16      Lease Accounting and Disclosure                             A
                                                                                             12-11
12-17      Travel Authorization Approval
12-18      Number not used                                                  Not applicable
           Intragovernmental Payment And Collection Review
12-19                                                                                        12-12
           Controls and Suspense Clearing
12-20      Controls over Internal Use Software (IUS)                   A
           Non-Compliance with the Federal Financial Management
12-21                                                                                 J
           Improvement Act of 1996 (FFMIA)
12-22      Prior Year Adjustments                                      A

1
 Disposition Legend:
IAR	 Independent Auditors’ Report dated November 14, 2012
FMC 	 Financial Management Comment
MW	 Contributed to a Material Weakness at the Department level when combined with the results of
        all other components
SD	 Contributed to a Significant Deficiency at the Department level when combined with the results
        of all other components
NC 	 Contributed to Non-Compliance with laws, regu lations, contracts, and grant agreements at the
        Department level when combined with the results of all other components
NFR 	 Notice of Finding and Recommendation




                                                10 

                                                                              Appendix A
                              Transportation Security Administration
                   Crosswalk – Financial Management Comments to Active NFRs
                                       September 30, 2012


Cross-reference to the applicable sections of the IAR:

A       Financial Reporting
B       Information Technology Controls and System Functionality
C       Property, Plant, and Equipment
D       Environmental and Other Liabilities
E       Budgetary Accounting
F       Entity-Level Controls
G       Grants Management
H       Custodial Revenue and Drawback
I       Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
J       Federal Financial Management Improvement Act of 1996 (FFMIA)
K       Single Audit Act Amendments of 1996
L       Antideficiency Act, as amended (ADA)




                                              11 

                                                                                             Appendix B
                                 Transportation Security Administration
                                       Status of Prior Year NFRs
                                          September 30, 2012


                                                                               Disposition1
                                                                                         Repeat
    NFR
            Description                                                        Closed2 (2011         NFR
    No.
                                                                                         No.)
            Employee Record Management and Compliance with Human
    11-01                                                                                 TSA 12-07
            Resource Related Laws
    11-02   Accrued Payroll Controls                                              X
    11-03   Ineffective Controls at the Dallas Warehouse                          X
    11-04   Ineffective Controls over the Time and Attendance Process                     TSA 12-09
            Property Plant and Equipment (PP&E) Federal Air Marshals
    11-05                                                                                 TSA 12-10
            (FAMS)
    11-06   PP&E Site Visits                                                              TSA 12-10
    11-07   Policies and Procedures over the PP&E Process                                 TSA 12-11
    11-08   Government Accountability Office (GAO) Checklist                      X
    11-09   Incorrect Trading Partner Codes                                       X
    11-10   Undelivered Order (UDO) Process                                               TSA 12-15
    11-11   Number Not Used                                                           Not applicable
    11-12   Review of Journal Entries (JEs)                                               TSA 12-06
    11-13   Number Not Used                                                           Not applicable
    11-14   Accounts Payable Process                                                      TSA 12-19
    11-15   PP&E Provided by Client Issues                                        X
    11-16   Lack of Policies and Procedures over Internal Use Software (IUS)              TSA 12-20
    11-17   Warehouse Reconciliation to the General Ledger                        X
    11-18   Travel Authorization Approval                                                TSA 12-17
    11-19   Accounting for Other Direct Costs                                     X
    11-20   Accounts Receivable Controls                                          X
    11-21   Reporting PP&E                                                        X
    11-22   UDO Documentation                                                             TSA 12-13
    11-23   Entity-Level Controls                                                         TSA 12-03
    11-24   Non-Compliance with the Debt Collection Improvement Act of 1996               TSA 12-04
    11-25   Warehouse Controls                                                    X
    11-26   Accounts Payable Balance                                              X
    11-27   Financial Reporting Deficiencies                                      X
            Non-Compliance with Federal Financial Management Improvement
    11-28                                                                                 TSA 12-21
            Act (FFMIA)
    11-29   Lease Accounting and Disclosure                                               TSA 12-16
    11-30   Accounting for Advances and Prepayments                               X
    11-31   Undelivered Orders Documentation – FAMS                               X
1
  KPMG was engaged to perform an audit over the DHS balance sheet and the related statements of net
cost, changes in net position and custodial activity, and combined statement of budgetary resources for
the year then ended. In addition, we were engaged to follow up on the status of all active NFRs that
supported significant deficiencies reported in our FY 2011 Independent Auditors’ Report.



                                                  12
                                                                                        Appendix B
                               Transportation Security Administration
                                     Status of Prior Year NFRs
                                        September 30, 2012


2
  The scope of our audit was limited to follow-up on NFRs that supported a material weakness or
significant deficiency as reported in our Independent Auditors’ Report. All other NFRs, e.g., that
described insignificant findings, and therefore presented to DHS management as observations for
consideration, were considered closed.

Note 1: Due to the expanded scoped in the FY 2012 audit, this finding was addressed at the component
level.




                                                13 

                               OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix C
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   Transportation Security Administration

   Administrator
   Chief Financial Officer
   Chief Information Officer
   Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                                            OIG-13-79
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
